No. 19-1175
In the

Supreme Court of the United States
JOHN AND MELISSA FRITZ,
Petitioners,
v.
WASHOE COUNTY, NEVADA,
Respondent.
On Petition for a Writ of Certiorari to
the Nevada Supreme Court
CERTIFICATE OF ELECTRONIC SERVICE
Pursuant to Sup. Ct. R. 29.3 and the Court’s April 15 Order, I certify that
Petitioner and Respondent consented to receive service of the BRIEF AMICUS
CURIAE OF PACIFIC LEGAL FOUNDATION IN SUPPORT OF PETITIONER
electronically and I caused electronic copies of the brief to be served via email.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 24, 2020.

____________________________
BRIAN T. HODGES
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (425) 576-0484
BHodges@pacificlegal.org
Counsel for Amicus Curiae

